Target Credit Card
Agreement
This Agreement explains the terms that you agree
to follow for your Target Credit Card Account
(“Account”). Your signature on your application or
solicitation for this Account, including without
limitation any electronic or digital signature, as
well as your signature on sales slips or any
Account-related document, represents your
signature on this Agreement. The card carrier that
accompanied your Target Credit Card is part of this
Agreement. In this Agreement “we,” “us,” “our”
and “TD Bank” mean TD Bank USA, N.A., a
national bank with its main office located in
Delaware, and its successors and assigns, which is
the issuer of the Target Credit Card. “You” and
“your” mean everyone who is liable for payment
on this Account. “Card” refers to your Target
Credit Card. “Target” means Target Corporation
and its affiliates. "PIN" refers to the personal
identification number associated with your Card
and any other personal identification number you
use to authorize a purchase using the Card,
including any PIN or password that you use to
access any mobile wallet where you store your
Card number. You understand that TD Bank USA,
N.A. is the issuer and Target has the right to service
accounts and collect on TD Bank’s behalf.
1. USE OF YOUR ACCOUNT - When you apply
for an Account, you promise to be bound by the
terms of this Agreement. You promise to pay us for
all credit extended under this Agreement and all
other amounts you owe to us according to the terms
of this Agreement. If the Account is a joint
Account, each of you is bound by this Agreement
and each of you jointly and individually promises
to pay us, and may be held liable for, all amounts

TD TC161965 (R04.20)

owed to us on your Account. You also promise to
pay us for charges incurred by anyone you allow to
use your Account. If you give your Card to
someone and authorize their use of the Card, you
must regain possession to terminate their
authorized use. This Account may be used only for
personal, family or household purposes. You agree
that you will not use or allow use of your Card or
Account for any illegal transaction or purpose.
You may only use your Card to make purchases of
goods and services (“Purchase(s)”) at Target stores
located in the United States and from the
Target.com website. You may be required to enter
your PIN to complete a transaction. You will
safeguard your Card and all PINs to prevent
unauthorized use.
2. CREDIT LIMIT - You agree that we may
establish a credit limit for your Account (“Credit
Limit”). You agree that we may change a Credit
Limit at any time for any reason not prohibited by
law, including, but not limited to, changes in your
credit capacity, your pattern of payments to us, or
your purchasing behavior. We may also change a
Credit Limit based on any information provided to
us by a consumer reporting agency, including your
risk score at the consumer reporting agency or
information about credit accounts you have with
other companies. We may, but are not required to,
approve transactions that exceed your Credit Limit
without liability to you and without obligating us
to do so in the future. You agree to prevent your
Account balance from exceeding the Credit Limit.
3. SPECIAL PROMOTIONS - Occasionally,
you may be provided the opportunity to use your
Card or Account in connection with special
promotions. These promotions may be subject to
terms and conditions in addition to or different

from those provided in this Agreement, which will
be described in the special promotion offer. Unless
otherwise stated, however, all terms of this
Agreement shall apply to any special promotion.
4. PAYMENTS - We will send you a billing
statement each month that your Account has a
balance. Your billing statement will show the
amount you owe us, which is called the New
Balance, and the smallest amount you have agreed
to pay us for that billing period, which is called the
Minimum Payment Due. If any portion of the New
Balance is delinquent, the statement will show the
Amount Past Due. The statement will also tell you
the Payment Due Date.
The Minimum Payment Due each month will equal
the greater of a) $29.00; or b) the sum of the
following: 1% of your New Balance (rounded to
the next higher whole dollar amount), any Interest
Charges, any Returned Payment Fees, and any Late
Payment Fees. We may round your Minimum
Payment Due to the next higher whole dollar
amount. If there is an Amount Past Due, we will
also add that amount and include it in your
Minimum Payment Due. If your New Balance is
less than $29.00, the Minimum Payment Due will
be the entire New Balance.
Your minimum payments will be allocated in our
discretion. Payments in excess of the minimum
payment will be allocated in accordance with
applicable law.
You agree to pay us in United States dollars. If you
pay by check, your check must be drawn on a
depository institution located in the United States.
If you do not pay the New Balance in full, you
agree to pay by your Payment Due Date at least the
Minimum Payment Due. You may, at any time, pay

the total amount owing on your Account. Payments
are posted to your Account in a timely manner as
required by law. However, we may delay restoring
your available Credit Limit in the amount of the
payment to make sure we receive the funds.
At our option, we may obtain payment for any
check or other instrument that you send to us by
initiating an electronic (including Automated
Clearing House) transfer from your depository
institution account in the amount of your check or
instrument. Your check or instrument will not be
returned to you by us or by your depository
institution. Your depository institution account
may be debited as early as the same day we receive
your payment. If we cannot process the electronic
transfer or if the electronic transfer is returned to
us, we may present the original check or other
instrument, a substitute check, draft or similar
instrument to obtain payment.
5. UNAUTHORIZED USE - If you notice the loss
or theft of your Card or PIN, or a possible
unauthorized use of your Card or PIN, you should
write to us immediately at:
Target Card Services
P.O. Box 1581
Minneapolis, MN 55440-1581
Or call us at: 1-800-659-2396
If you notify us by telephone, you agree to confirm
your notification in writing. You are not liable for
unauthorized use of the Account. You agree to
assist us in determining the facts relating to any
theft or possible unauthorized use of your Account
and to comply with the procedures we may require
for our investigation. All Cards are issued by us to
you and you must return or destroy your Card if we
request you to do so.

TD TC161965 (R04.20)

6. CREDIT AUTHORIZATIONS - Some
transactions will require our prior authorization
and you may be asked to provide identification. If
our authorization system is not working, we may
not be able to authorize a transaction. We will not
be liable to you if any of these events happen or for
any failure to authorize a transaction. We are also
not responsible for the refusal of anyone to accept
your Card.

Payment Due and the amount of Interest Charges
on your Account may also increase.

7. INTEREST CHARGES • ANNUAL PERCENTAGE RATE — Your
Annual Percentage Rate and corresponding Daily
Periodic Rate may vary with changes in the Prime
Rate. If you received a temporary card for your
Account, the Annual Percentage Rate and the Daily
Periodic Rate applicable to your Account are noted
on it. The temporary card is a part of this
Agreement. The card carrier sent with your Card
also tells you the Annual Percentage Rate and
Daily Periodic Rate applicable to your Account
and is a part of this Agreement. If the Prime Rate
changes, the Annual Percentage Rate shown on the
card carrier and your billing statement may be
different than those disclosed on your temporary
card.

• BALANCE COMPUTATION AND PAYING
INTEREST CHARGES - We calculate a Daily
Balance for your Account. We may maintain
separate balances for your Purchases and special
promotional Purchase balances (each, a “Balance
Type”) and calculate a Daily Balance for each. To
determine the Daily Balance for a Balance Type,
each day we take the beginning balance for the
Balance Type, add any new charges included in
that Balance Type, and subtract any payments and
credits applied to that Balance Type. We then
multiply the resulting balance by the applicable
Daily Periodic Rate. The resulting daily Interest
Charge is included in the beginning balance of that
Balance Type for the next day. Purchases are
included in the Daily Balance as of the later of the
transaction date or the first day of the billing period
in which the Purchase is posted to the Account.
Fees are included in the Daily Balance of
Purchases when posted to the Account.

The Annual Percentage Rate (“APR”) and
corresponding Daily Periodic Rate (“DPR”) will be
determined by adding a margin to the Prime Rate.
The “Prime Rate” means the highest U.S. Prime
Rate published in the “Money Rates” section of
The Wall Street Journal. For each billing period we
look at the Prime Rate on the last business day of
the previous calendar month. Any change in the
APR and corresponding DPR will take effect on
the first day of the billing period. Your rate may
increase when the Prime Rate increases. If the APR
and corresponding DPR increase, the Minimum

• PURCHASES - The APR for Purchases is
determined by adding to the Prime Rate a margin
of 19.65%. Please see the Pricing Information for
the APR and corresponding DPR that was in effect
within the last 60 days from your request of this
agreement.

We figure the Interest Charge on your Account for
each Balance Type by multiplying your Daily
Balance of each Balance Type by the applicable
Daily Periodic rate for each day in the billing cycle.
At the end of the billing period, we will add up the
daily Interest Charges on all Balance Types for
each day in the billing period to get the total
Interest Charge for the billing period.

Interest Charges begin to accrue on Purchases as of
the day the Purchase is included in the Daily
Balance. However, if you paid the New Balance
that was shown on your previous billing statement
by the Payment Due Date on that statement, then
(1) we will not impose Interest Charges on
Purchases during your current billing period if you
pay the New Balance shown on your current billing
statement by the Payment Due Date on that
statement, and (2) we will credit any payment (to
the extent the payment is applied toward
Purchases) as of the first day in your current billing
period if you make a payment by the Payment Due
Date that is less than the current billing period’s
New Balance.
If a New Balance was shown on your previous
billing statement and you did not pay the New
Balance by the Payment Due Date on that
statement, then we will not impose Interest
Charges on any Purchases during the current
billing period if you pay the New Balance shown
on your current billing statement by the Payment
Due Date on that statement.
Please note that if your Account has a promotional
balance, this may impact how we are required to
apply your payments and whether you can take
advantage of these terms regarding Interest
Charges on Purchases.
 MINIMUM CHARGE FOR BILLING
PERIOD - For any billing period in which an
Interest Charge is imposed on your Account, there
is a minimum interest charge of $1.00.
8. FEES - The following fees may be assessed on
your Account.

TD TC161965 (R04.20)

• LATE PAYMENT FEE - You will pay a Late
Payment Fee of $29.00 when any amount due
remains unpaid after your Payment Due Date. Any
subsequent Late Payment Fees will be $40.00 until
you make your required Minimum Payment Due
by the Payment Due Date for six consecutive
billing periods. In any event, the Late Payment Fee
will not be greater than your Minimum Payment
Due for the billing period for which your payment
was late.
• RETURNED PAYMENT FEE - You will pay
$29.00 each time any check or other payment order
(including an electronic payment) is not honored
by a depository institution. In any event, the
Returned Payment Fee will not be greater than the
Minimum Payment Due that was due immediately
prior to the date on which the payment was
returned to us.
• EXPEDITED DELIVERY FEE - At your request,
we will expedite the delivery of an additional or
replacement Card for your Account. You may be
required to reimburse us up to $25.00 for delivery
and other charges imposed on us by third parties
for this expedited service.
• DOCUMENTATION REPRODUCTION FEE You may be charged $2.00 for each duplicate
Account document we reproduce for you at your
request, in accordance with applicable law. We will
not charge you for duplicate documents we
reproduce for you in connection with a billing error
notice or if our investigation indicates a billing
error occurred.
9. ACCORD AND SATISFACTION - We may
accept letters, checks or other types of payments
showing “payment in full” or using other language
to indicate satisfaction of your debt (“Disputed

Amounts”) without waiving any of our rights to
receive full payment under the terms of this
Agreement. You agree to send any Disputed
Amounts to the address for billing inquiries shown
on your billing statement.
10. CONSUMER REPORT USE AND
FURNISHING INFORMATION - We may
check information about you, your credit history,
or your salary and employment with consumer
reporting agencies, including credit bureaus, or
others. We may report information about your
Account to credit bureaus. Late payments, missed
payments, or other defaults on your Account may
be reflected in your credit report. We may also
report information about you, your Account, and
our experiences with you to consumer reporting
agencies, to credit bureaus, to other companies that
are affiliated with us or to others as allowed by law
and our privacy policy. If you do not fulfill the
terms of this Agreement, we may submit a negative
report reflecting on your credit record to one or
more consumer reporting agencies. If you believe
we have reported inaccurate information about
your Account to a consumer reporting agency, you
should notify us by sending your Account number
and a description of the information you believe to
be inaccurate, along with any documentation
supporting the inaccuracy, such as your credit
report, to Target Card Services, P.O. Box 673,
Minneapolis, MN 55440-0673.
11. DEFAULT/TERMINATION OF CREDIT
PRIVILEGES - Subject to applicable law, you
will be in default under this Agreement if you
violate any term of this Agreement, fail to make the
Minimum Payment Due by the Payment Due Date,
or become the subject of bankruptcy or insolvency
proceedings. Upon default or death, subject to
applicable law, we may, in our sole discretion: (a)

reduce your Credit Limit (b) terminate the
Account, at which time the terms of this Agreement
will continue until we have been paid in full; (c)
require immediate payment of the total balance on
your Account including all related fees and charges
described in this Agreement; (d) bring a legal
action against you to collect money owed to us; (e)
terminate any special promotional credit terms; or
(f) take any other action permitted by applicable
law. If we refer your Account to an attorney for
collection, you must pay to us all costs and
expenses of collection, including attorneys’ fees
and court costs, to the extent not prohibited by law.
Even if you are not in default, we reserve the right
to terminate your privileges to obtain credit on the
Account at any time. Upon any termination of
this Agreement by you or us, you will continue
to be obligated to pay all amounts owing under
this Agreement, and to otherwise perform the
terms and conditions of this Agreement.
12. COMMUNICATIONS WITH YOU - We or
our agents may call or text by telephone regarding
your Account. You agree that we may place such
calls
or
texts
using
an
automatic
dialing/announcing device. You agree that we may
make such calls or texts to a mobile telephone or
other similar device. You agree that we may, for
training purposes or to evaluate the quality of our
service, listen to and record phone conversations
you have with us. Message and data rates may
apply. To opt out, please call the number on the
back of your card.
13. WHAT LAW APPLIES - Applicable federal
law and the substantive laws of the State of
Delaware (to the extent not preempted by
federal law) without regard to the principles of
conflicts of law or choice of law shall govern this

TD TC161965 (R04.20)

Agreement. To the extent any court determines
that this Agreement is subject to Maryland law
concerning credit, you and TD Bank agree that
your Account is governed by Title 12, Subtitle 9
of the Commercial Law Article of the
Annotated Code of Maryland, except as
preempted by federal law. If there is any conflict
between any of the terms and conditions of this
Agreement and applicable federal or state law, this
Agreement will be considered changed to the
extent necessary to comply with the law.
14.
CHANGE
OF
PERSONAL
INFORMATION - You agree to tell us right away
of any change in your name, address or telephone
numbers.
15. ASSIGNMENT OF ACCOUNT - We may
sell, assign or transfer your Account or any
receivables created under your Account without
notice to you. We will record any transfer in the
book entry system maintained by us for the benefit
of you. You may not sell, assign or transfer your
Account without first obtaining our written
consent.
16. NO WAIVER - We may waive or delay
enforcing any of our rights under this Agreement
or under applicable law without losing any of those
rights or remedies. Even if we do not enforce our
rights or remedies at any one time, we may enforce
them at a later time.
17. CHANGES TO THIS AGREEMENT - We
have the right to change this Agreement (including
the right to add additional terms) and to apply those
changes to any existing balance on the Account as
permitted by law. We will provide you with notice
of any such changes as required by applicable law.

18. NO SECURITY - Your Account is unsecured.
We are not taking a security interest in any property
in connection with your Account.
19. EVIDENCE - You agree that we may use a
copy, microfilm, microfiche or digital image of any
periodic statement or other document to prove
what you owe us and that the copy, microfilm,
microfiche or digital image will have the same
validity as the original.
20. CAPTIONS AND INTERPRETATIONS The captions used in this Agreement are for
convenience only. They do not affect the meaning
of the paragraphs in this Agreement.
21. SEVERABILITY - If any part of this
Agreement is held to be invalid, the rest will
remain in effect.
22. ENTIRE AGREEMENT - You agree that this
Agreement (as amended and supplemented from
time to time) and the application constitute the final
expression of the Agreement between you and us
and that this Agreement may not be contradicted
by evidence of any prior or contemporaneous or
subsequent
oral
agreement
between
a
representative of ours or a Target employee.
Neither a Target store nor Target store employees
have authority to change, add to, or explain the
terms of this Agreement, except as expressly
provided in this Agreement.
You may at any time pay the unpaid balance of
the account in whole or in part without
incurring
any
additional
charge
for
prepayment.

Pricing Information
Annual Percentage Rate
(APR) for Purchases

Your Annual Percentage Rates and corresponding Daily Periodic Rates may vary with changes in the Prime Rate.
The Annual Percentage Rate (“APR”) and corresponding Daily Periodic Rate (“DPR”) will be determined by adding
a margin to the Prime Rate. The “Prime Rate” means the highest U.S. Prime Rate published in the “Money Rates”
section of The Wall Street Journal. For each billing period we look at the Prime Rate on the last business day of the
previous calendar month. Any change in the APR and corresponding DPR will take effect on the first day of the
billing period. Your rates may increase when the Prime Rate increases. If the APR and corresponding DPR increase,
the Minimum Payment Due and the amount of Interest Charges on your Account may also increase.
The APR for Purchases may vary and is determined by adding to the Prime Rate a margin of 19.65%. Your Purchase
APR is 22.90% (corresponding to a DPR of 0.06273%).

How to Avoid Paying
Interest Charges

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on purchases
if you pay your entire balance by the due date each month.

Minimum Interest
Charge

If you are charged interest, you will be charged no less than $1.00.

Annual Fee
Penalty Fees

None

 Late Payment

Up to $40

 Returned Payment

Up to $29

How We Will Calculate Your Balance: We use a method called “Daily Balance.” We calculate a Daily Balance for your Account. We maintain
separate balances for your Purchase and special promotional Purchase balances (each, a “Balance Type”) and calculate a Daily Balance for each. To
determine the Daily Balance for a Balance Type, each day we take the beginning balance for the Balance Type, add any new charges included in that
Balance Type, and subtract any payments and credits applied to that Balance Type. We then multiply the resulting balance by the applicable Daily
Periodic Rate. The resulting daily Interest Charge is included in the beginning balance of that Balance Type for the next day. Purchases are included in
the Daily Balance as of the later of the transaction date or the first day of the billing period in which the Purchase is posted to the Account. Fees are
included in the Daily Balance of Purchases when posted to the Account.

TD TC161965 (R04.20)

